              U.S. Department of Energy
              Office of Inspector General
              Office of Audits and Inspections




 Inspection Report


Follow-up Inspection on
Characterization Wells at Los
Alamos National Laboratory




INS-L-13-05                          July 2013
                                  Department of Energy
                                    Washington, DC 20585
                                           July 9, 2013

MEMORANDUM FOR THE ACTING MANAGER, LOS ALAMOS FIELD OFFICE,
               NATIONAL NUCLEAR SECURITY ADMINISTRATION


FROM:                     Sandra D. Bruce
                          Assistant Inspector General
                            for Inspections
                          Office of Inspector General

SUBJECT:                  INFORMATION: Inspection Report on "Follow-up Inspection on
                          Characterization Wells at Los Alamos National Laboratory"

BACKGROUND

Since the early 1940s, the Los Alamos National Laboratory (Los Alamos) has conducted
experimental research on the development of nuclear weapons and explosive materials. These
activities have resulted in the generation and disposal of a variety of hazardous, radioactive, and
solid wastes. Los Alamos has disposed of these wastes in septic systems, pits, surface
impoundments, trenches, shafts, landfills, and waste piles at the facility. Contaminants such as
plutonium, americium, and tritium have been detected in soils and sediments at the facility and in
groundwater beneath the facility. In 1998, Los Alamos developed a workplan that established
the basis for characterizing the hydrogeologic system beneath the facility and determining
whether the concentration of contaminants in groundwater exceeded regulatory limits.
Implementation of the workplan required the installation of 32 regional aquifer wells, commonly
referred to as characterization wells.

In our September 2005 report on Characterization Wells at Los Alamos National Laboratory
(DOE/IG-0703), we noted that the use of mud rotary drilling methods during well construction
was contrary to specific constraints established in Resource Conservation and Recovery Act
guidance. We also noted that muds and other drilling fluids that remained in certain wells after
construction created a chemical environment that could mask the presence of radionuclide
contamination and compromise the reliability of groundwater contamination data.

Considering the results of our prior inspection, we initiated this review to determine if Los
Alamos had taken action to improve its characterization well process.

RESULTS OF INSPECTION

Our inspection found that Los Alamos had taken action designed to improve the management of
its characterization well program. Specifically, we noted that Los Alamos no longer uses mud
rotary drilling methods during well construction, and appropriate steps have been taken to ensure
data derived from monitoring wells is reliable. We also found that responsibility for the Los
Alamos Characterization Wells Monitoring Program had been transferred to the New Mexico
Environmental Department.

                                              Mud Rotary Drilling

We found that Los Alamos no longer uses mud rotary drilling methods during well construction.
At the time of our 2005 report, consideration was being given to converting some or all of the
Los Alamos characterization wells to groundwater monitoring wells under a March 1, 2005,
Compliance Order on Consent entered into by the New Mexico Environmental Department, the
Department of Energy (Department), and the University of California (the prior Management
and Operating Contractor).1 However, in 2005, we reported that certain residual drilling fluids
were not fully removed. Specifically, in the case of several of the wells constructed at that time,
we reported that, contrary to Resource Conservation and Recovery Act guidance, certain wells
were constructed without muds and other drilling fluids being totally purged. We also reported
that muds and other drilling fluids that remained in the wells after construction created a
chemical environment that could mask the presence of radionuclide contamination and
compromise the reliability of groundwater contamination data.

During this follow-up inspection, we determined that corrective actions had been taken to
address the issues with mud rotary drilling identified in our 2005 report. Specifically, the Los
Alamos Field Office and New Mexico Environmental Department officials verified that the
Hydrogeologic Workplan wells were converted to monitoring wells under the Compliance Order,
and that in doing so, certain well screens2 found to be unreliable were sealed off and no longer
used for the collection of radionuclide data. Also, instead of using mud rotary drilling
techniques, Los Alamos uses various air, potable water and foam techniques for the construction
of monitoring wells under the Compliance Order. An example would be the use of foam
approximately 100 feet above the aquifer and then the use of air and potable water from that
point on. Finally, the New Mexico Environmental Department is now responsible for the Los
Alamos Characterization Wells Monitoring Program and the requirements of that program as
stated in the Compliance Order.

                                               Contamination Data

We found that appropriate steps had been taken to ensure data derived from monitoring wells is
more reliable. In 2005, we reported that the Department was voluntarily providing radionuclide
contamination data to the State of New Mexico under a long-standing Department policy
described in a 1998 agreement with the National Association of Attorneys General and a
November 2000 Agreement-in-Principle between the Department and the State of New Mexico.

1
 This Order was issued pursuant to the New Mexico Hazardous Waste Act for the purpose of fully determining the
nature and extent of releases of contaminants at or from Los Alamos and to identify, evaluate, and implement
corrective measures to prevent or mitigate the migration of contaminants from the site. The requirements of the
Order do not apply to radionuclides.
2
  A well screen serves as the intake point of a monitoring well. It permits water to enter the well from the aquifer
for the purpose of collecting ground water samples. It also prevents geologic materials from entering the well and
serves structurally to support unconsolidated materials that surround the well screen.


                                                          2
We also reported that the Department should provide any applicable qualifications on the
accuracy and precision of that data.

During this follow-up inspection, we determined that concerns over the reliability of
contamination data identified in our 2005 report were addressed by the changes in well drilling
processes and the discontinued use of well screens that had been found to be unreliable. In
addition, we noted during our inspection that the groundwater surveillance monitoring program
follows well development and purging methods from the Compliance Order, which impact the
quality of contamination data. Also, Los Alamos is now required to remove three well volumes
of water prior to drawing samples. Further, Los Alamos and the New Mexico Environmental
Department now perform separate tests using different samples analyzed at different laboratories
and the reporting of radionuclide contamination data contains appropriate qualifications on the
accuracy and precision of that data.

Because of the progress we observed, we are not making recommendations or suggestions. We
appreciate the cooperation of your staff during our inspection.

Attachments

cc:   Deputy Secretary
      Acting Administrator, National Nuclear Security Administration
      Chief of Staff




                                               3
                                                                                     Attachment


                      OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

Considering the results of our prior inspection, we initiated this review to determine if Los
Alamos National Laboratory had implemented the recommendations in our 2005 report that were
intended to improve the characterization well process.

SCOPE

This follow-up inspection was conducted to verify that the recommendations of our inspection
report, Characterization Wells at Los Alamos National Laboratory (DOE/IG-0703, September,
2005), were closed. This inspection was conducted from July 2012 to June 2013, at the National
Nuclear Security Administration's Albuquerque Complex in Albuquerque, the New Mexico
Environment Department in Santa Fe, and the Los Alamos National Laboratory in Los Alamos,
New Mexico. To accomplish the inspection objective, we:

       Conducted research and analyses to include obtaining documentation showing evidence
       that recommendations were implemented;

       Reviewed Department Orders pertaining to the characterization well process;

       Conducted briefings and interviews with Characterization Wells and Monitoring Program
       officials and personnel from Los Alamos National Laboratory, the Los Alamos Field
       Office and New Mexico Environment Department; and

       Conducted an interview with the prior complainant related to our inspection report on
       Characterization Wells at Los Alamos National Laboratory (DOE/IG-0703, September,
       2005).

METHODOLOGY

This inspection was conducted in accordance with the Council of the Inspectors General on
Integrity and Efficiency's Quality Standards for Inspection and Evaluation, January 2012. Those
standards require that we plan and perform the inspection to obtain sufficient, appropriate
evidence to provide a reasonable basis for our conclusions and observations based on our
inspection objective. We believe the evidence obtained provides a reasonable basis for our
conclusions and observations based on our inspection objective. Accordingly, the inspection
included tests of controls and compliance with laws and regulations to the extent necessary to
satisfy the inspection objective. Because our review was limited, it would not necessarily have
disclosed all internal control deficiencies that may have existed at the time of our inspection.
Finally, we relied on computer-processed data, to some extent, to satisfy our objective. We
confirmed the validity of such data, when appropriate, by reviewing source documents and
conducting physical observations.

The exit conference was waived by National Nuclear Security Administration management.

                                               4
                                                                        IG Report No. INS-L-13-05

                               CUSTOMER RESPONSE FORM
I   The Office of Inspector General has a continuing interest in improving the usefulness of its
    products. We wish to make our reports as responsive as possible to our customers' requirements,
    and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
    you may suggest improvements to enhance the effectiveness of future reports. Please include
    answers to the following questions if applicable to you:

    1. What additional background information about the selection, scheduling, scope, or
       procedures of the audit or inspection would have been helpful to the reader in understanding
       this report?

    2. What additional information related to findings and recommendations could have been
       included in the report to assist management in implementing corrective actions?

    3. What format, stylistic, or organizational changes might have made this report's overall
       message clearer to the reader?

    4. What additional actions could the Office of Inspector General have taken on the issues
       discussed in this report that would have been helpful?

    5. Please include your name and telephone number so that we may contact you should we have
       any questions about your comments.


    Name                                          Date

    Telephone                                     Organization

    When you have completed this form, you may telefax it to the Office of Inspector General at
    (202) 586-0948, or you may mail it to:

                                   Office of Inspector General (IG-1)
                                         Department of Energy
                                        Washington, DC 20585

                                      ATTN: Customer Relations


    If you wish to discuss this report or your comments with a staff member of the Office of
    Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
